             OFFICE OF
      THE INSPECTOR GENERAL

  SOCIAL SECURITY ADMINISTRATION

            CLOUD COMPUTING
                 AT THE
     SOCIAL SECURITY ADMINISTRATION


      September 2012   A-14-12-11226




EVALUATION REPORT
                                    Mission
By conducting independent and objective audits, evaluations and investigations,
we inspire public confidence in the integrity and security of SSA’s programs and
operations and protect them against fraud, waste and abuse. We provide timely,
useful and reliable information and advice to Administration officials, Congress
and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

    Conduct and supervise independent and objective audits and
       investigations relating to agency programs and operations.
      Promote economy, effectiveness, and efficiency within the agency.
      Prevent and detect fraud, waste, and abuse in agency programs and
       operations.
      Review and make recommendations regarding existing and proposed
       legislation and regulations relating to agency programs and operations.
      Keep the agency head and the Congress fully and currently informed of
       problems in agency programs and operations.

   To ensure objectivity, the IG Act empowers the IG with:

    Independence to determine what reviews to perform.
    Access to all information necessary for the reviews.
    Authority to publish findings and recommendations based on the reviews.

                                     Vision
We strive for continual improvement in SSA’s programs, operations and
management by proactively seeking new ways to prevent and deter fraud, waste
and abuse. We commit to integrity and excellence by supporting an environment
that provides a valuable public service while encouraging employee development
and retention and fostering diversity and innovation.
                                             SOCIAL SECURITY
MEMORANDUM

Date:      September 24, 2012                                                   Refer To:

To:        The Commissioner

From:      Inspector General

Subject:   Cloud Computing at the Social Security Administration (A-14-12-11226)


           OBJECTIVE
           Our objectives were to (1) assess the Social Security Administration’s (SSA) plan to
           move computer services to a cloud, (2) determine the risks associated with moving
           computer services to a cloud, and (3) identify opportunities to save monies by
           partnering with other Federal agencies in moving computer services to a cloud.

           BACKGROUND
           Cloud computing is a general term for anything that involves delivering hosted services
           over the Internet. The name cloud computing was inspired by the cloud symbol that is
           often used to represent the Internet in flowcharts and diagrams.

           According to the National Institute of Standards and Technology (NIST), cloud
           computing is a model for enabling convenient, on-demand access to a shared pool of
           configurable computing resources (for example, networks, servers, storage, applications
           and services) that can be rapidly provisioned and released with minimal management
           effort or service provider interaction. 1 The cloud may be owned, managed, and
           operated by an organization, a third party, or a combination of the two, and it may exist
           on or off the organization’s premises. Cloud computing can be implemented as a

           •     private cloud that is used by a single organization comprising multiple users
                 (for example, businesses);
           •     community cloud that is used by a specific community of individuals from
                 organizations that have shared concerns (for example, mission, security
                 requirements, policy, and compliance considerations);
           •     public cloud that is used by the general public; or
           •     hybrid mix of any of the above.


           1
               NIST, Special Publication 800-145, The NIST Definition of Cloud Computing, p. 2, September 2011.
Page 2 - The Commissioner

In a December 2010 publication, 2 the Office of Management and Budget (OMB)
mandated a shift to a Cloud First Policy. 3 Each agency’s Chief Information Officer (CIO)
was required to identify three computer services that must move to a cloud and create a
project plan for migrating to a cloud solution and retiring the associated legacy
systems. 4 At least one of the three services was required to be fully migrated to a cloud
within 12 months [by December 2011] 5 and the remaining two computer services within
18 months [by June 2012]. 6

When evaluating options for new IT deployments, OMB requires that agencies default to
a cloud-based solution when there is a secure, reliable, cost-effective cloud option. 7
Additionally, OMB stated each migration plan will include major milestones, execution
risks, adoption targets, and required resources as well as a retirement plan for legacy
systems once cloud solutions are online. 8

In February 2011, OMB published its Federal Cloud Computing Strategy, 9 which
required that agencies modify their IT portfolios to fully take advantage of the benefits of
cloud computing to maximize capacity use, improve IT flexibility and responsiveness,
and minimize cost. Specifically, OMB required that each Federal agency reevaluate its
technology sourcing strategy to include consideration and application of cloud
computing solutions as part of the budget process. 10

SSA submitted its initial Cloud First Plan to OMB in February 2011. That Plan identified
three initiatives the Agency planned to migrate to a cloud: Citizen Access Routing
Enterprise (CARE) Through 2020, 11 email services, and electronic Freedom of
Information Act (eFOIA). 12 However, because of budget constraints and additional
2
 OMB, 25 Point Implementation Plan to Reform Federal Information Technology (IT) Management,
December 9, 2010.
3
  “Cloud First” Policy is part of OMB’s 25 Point Implementation Plan to Reform Federal IT Management,
Section A, Part 3, pp. 6 through 8. This three-part strategy revolves around using commercial cloud
technologies where feasible, launching private Government clouds, and using regional clouds with State
and local governments where appropriate. OMB, supra at p. 7.
4
    Id.
5
    Id.
6
    Id.
7
    Id.
8
    OMB, supra at p. 8.
9
    OMB, Federal Cloud Computing Strategy, p. 2, February 8, 2011.
10
     Id.
11
  The CARE Through 2020 is replacing SSA’s existing Call Center Network solution contract—which
provides SSA with National 800 Number Network call center services. For additional details on CARE
Through 2020, see Appendix C, pp. 13 and 14.
12
     An automated electronic system used to process FOIA requests and administrative appeals.
Page 3 - The Commissioner

analysis, SSA withdrew email services and eFOIA and substituted eVerify13 and
American Association of Motor Vehicle Administrators (AAMVA)/Help America Vote
Verification (HAVV). 14 SSA submitted its revised Cloud First Plan to OMB on
December 2, 2011. The Plan included CARE Through 2020 as a service in a public
cloud and eVerify and AAMVA/HAVV as services in private clouds.

To accomplish our objectives, we interviewed SSA management and staff; compared
SSA’s cloud computing plan to OMB guidance and standards published by NIST;
researched cloud computing benefits and limitations; and contacted other Federal
agencies on their cloud experiences. We also identified risks associated with moving
computer services to a cloud. We did not limit our identification of risks to the three
computer services SSA identified to move to a cloud. For more information on our
scope and methodology, see Appendix B.

RESULTS OF REVIEW
Based on our interviews with SSA staff, analysis of the Agency’s Cloud First Plan, and
inquiries with other Federal agencies, we determined that SSA’s Cloud First Plan
generally complied with OMB requirements. However, we found the Agency needs to
develop a service-based methodology to identify and track costs related to moving
computer services to a cloud. For example, for the two computer services implemented
in the cloud and the remaining computer service scheduled for implementation in
December 2012, the Agency cannot demonstrate that it received an equal or greater
return of investment (ROI) when moving these computer services to a cloud. The
Agency does not have methodology to identify and track the costs associated with its
cloud implementations including the costs associated with the retirement of its legacy
systems.

Further, we found the Agency identified execution risks, as required by OMB, 15 for the
three computer services planned for cloud implementation, but additional risks may
affect the Agency’s data and legacy systems. 16 Finally, we determined the Agency had
already partnered with some agencies; however, other opportunities existed.




13
  eVerify provides employers (and certain others) an automated link to Federal databases to help
employers determine employment eligibility of new hires and to ensure the Social Security number
matches the employee’s name. For additional details on eVerify, see Appendix C, pp. 15 and 16.
14
  AAMVA /HAVV fulfills the Social Security Number Verification services requirement for State Motor
Vehicle Administrations and State-level Voter Registration Services. To meet these parallel
requirements, State Motor Vehicle Administrations and Voter Registration offices must verify the
applicant’s name, date of birth, and Social Security number with SSA. For additional details on AAMVA
/HAVV, see Appendix C, pp. 17 and 18.
15
     OMB, 25 Point Implementation Plan to Reform Information Federal IT Management, § A, p. 8.
16
  We define legacy systems as systems or applications that have been inherited from languages,
platforms, and techniques earlier than current technology. For example, this would include applications
programmed in Common Business Oriented Language.
Page 4 - The Commissioner

Although we identified some concerns, we applaud the Agency for cautiously moving
services to the cloud. SSA needs to decide whether the risks associated with moving
computer services to a cloud outweigh the benefits to maximize capacity, improve IT
flexibility and responsiveness, and minimize cost.

SSA’s Cloud First Plan Generally Met Federal Requirements but Could be
Improved with the Development of a Service-Based Methodology for Identifying
and Tracking Costs

During our review, we found SSA’s Cloud First Plan generally complied with Federal
requirements. However, we believe the Agency needs to develop a methodology to
identify and track costs associated with its cloud implementations. 17

In its revised Cloud First Plan, the Agency proposed to move three computer services to
a cloud:

•     CARE Through 2020, 18
•     eVerify, 19 and
•     AAMVA/HAVV. 20

The Agency stated that eVerify and AAMVA/HAVV existed before OMB’s Cloud First
Policy was issued and were selected to comply with OMB’s mandated timeframes. 21
We requested documentation of OMB’s approval of SSA’s cloud first plan. SSA
management stated that based on discussions with OMB, the Agency’s plan was
approved. However, we determined that OMB never formally approved SSA’s plan.

OMB Circular A-130 22 states that Federal agencies must demonstrate a projected return
on investment (ROI) that is clearly equal to or better than alternative uses of available
public resources. However, SSA’s revised Cloud First plan did not document whether
moving its computer services to a cloud achieved an equal or greater ROI than
maintaining its legacy systems because it did not have an appropriate service-based
methodology to identify and track costs associated with its cloud implementations. For
example, SSA identified costs for two projects, CARE Through 2020 and eVerify;


17
     OMB, 25 Point Implementation Plan to Reform Information Federal IT Management, § A, pp. 7 and 8.
18
  The infrastructure is complete, but the transition to SSA’s site will not be completed until December
2012.
19
     Service operational January 2011.
20
     Service operational January 31, 2012.
21
  Each agency’s CIO was required to identify three computer services that must move to a cloud and
create a project plan for migrating to a cloud solution and retiring the associated legacy systems. At least
one of the three computer services must be fully migrated to a cloud by December 2011 and the
remaining two computer services by June 2012.
22
     OMB, Circular A-130, Management of Federal Information Resources, § 8.b(1)(b)(v), p. 12.
Page 5 - The Commissioner

however, the Agency identified projected costs rather than actual or service-based
costs. 23 Furthermore, SSA did not calculate an ROI for eVerify or AAMVA/HAVV.

We question whether the Agency could calculate an accurate ROI because the Agency
does not have an appropriate service-based methodology to identify and track costs
associated with moving computer services to a cloud. According to industry best
practices, an IT service-based cost approach provides the total cost for a computer
service. The service-based cost methodology identifies and tracks IT costs or
expenditures and assigns, distributes, or allocates those costs/expenditures to the IT
services that generated them. If SSA had a service-based cost methodology, the
Agency could determine the cost of the computer service being moved to the cloud. At
the time of this review, the Agency could not identify and track costs associated with its
cloud initiatives.

SSA identifies and tracks IT project costs using data and inputs from a variety of
systems. 24 For many years, we have been concerned about the Agency’s inability to
identify and track the cost of its systems or IT projects. For example, our 2008 report on
the Reliability and Accuracy of the SSA’s Exhibit 300 Submissions to the Office of
Management and Budget 25 stated SSA did not ensure the total costs for its major IT
projects were properly estimated and reported in Exhibits 300 to OMB. In one instance,
estimated costs were based on incomplete analysis, which made the total estimated
project cost significantly different than the actual cost. In another instance, $18.8 million
in historical costs for planning was excluded as project cost. Furthermore, our report on
SSA’s Software Modernization and Use of Common Business Oriented Language 26
stated, “SSA provided no documentation that its current modernization approach
created any additional efficiencies or stabilized its service delivery costs. Nor could
SSA provide an allocation between the cost to maintain its legacy systems and its total
IT maintenance cost.” Without this information, we could not determine whether SSA’s
investments in IT infrastructure created any additional efficiencies or reduced operation
costs. OMB estimates that about $20 billion of the Government’s $80 billion in IT
spending is potentially targeted for moving computer services to a cloud.

SSA management stated that the Agency built its cloud strategy on a highly virtualized 27
environment, which creates the impression of a device or resource, such as a server or
operating system, where the framework divides the resource into multiple execution
23
     See pages C-14 and C-16 in Appendix C.
24
  Indirect and direct cost is administered for IT Systems Cost, Government and Contractor Labor using
Automated Purchase Requisition System, Resource Accounting System/Mainframe Time and Attendance
System, and Contractor Actuals Reporting System.
25
  SSA OIG, Reliability and Accuracy of the SSA’s Exhibit 300 Submissions to the Office of Management
and Budget (A-14-08-18018), September 30, 2008.
26
  SSA OIG, The Social Security Administration’s Software Modernization and Use of Common Business
Oriented Language (A-14-11-11132), May 17, 2012.
27
   Virtualization is the concept of masking IT resources in a way that the physical nature and boundaries
of those resources are hidden from resource users. An IT resource can be a server, a client, storage,
networks, applications or operating systems.
Page 6 - The Commissioner

environments. Partitioning a hard drive is considered virtualization because one drive is
divided into two hard drives. Virtualization is a characteristic of cloud computing;
however, it does not fully incorporate all aspects of cloud computing.

Cloud computing uses virtualization to provide computing resources as a service or
utility over public, semi-public, or private infrastructures. 28 Virtualization software allows
one physical machine to run multiple operating systems. For example, SSA could run
Microsoft and UNIX operating systems on the same server thereby reducing the number
of servers required for its operations. Moreover, the virtualization software helps
provide complete and ongoing cost information to assist SSA in managing its IT
budgetary resources and align IT initiatives with Agency business goals.

According to OMB, agencies should take steps during migration to ensure they fully
realize the expected value from provisioning cloud services. 29 Further, OMB guidance
states that, “. . . [f]rom an efficiency standpoint, legacy applications and servers should
be shut down and decommissioned or repurposed.”30 With CARE Through 2020, SSA
stated that its National 800-Number Network 31 and Call Center Network Solution 32 were
retired. SSA identified sections of its existing eVerify system that were replaced.
However, for AAMVA /HAVV, the Agency did not retire any of its legacy systems. To
further demonstrate the Agency’s operating savings for moving computer services to a
cloud, SSA should track and account for cost savings derived from retiring its legacy
systems or using them for other purposes. SSA could reinvest the costs saved or
realize cost savings by using segments or entire legacy systems to meet other needs
that would otherwise require additional outlays.

In summary, we found SSA’s Cloud First plan generally complied with Federal
requirements. However, since Federal agencies are encouraged to acquire secure,
reliable, and cost-effective cloud options, SSA needs to develop a service-based
methodology that identifies and tracks the cost for moving computer services to a cloud.
This would include the costs of retiring a segment or an entire legacy system.
Therefore, we recommend SSA develop a service-based methodology 33 to identify and
track costs including the costs of retiring segments or entire legacy systems for all IT
initiatives so the Agency can determine whether moving computer services to a cloud
provides an equal or greater ROI than keeping the status quo.


28
 Virtualization Special Interest Group PCI Security Standards Council, Information Supplement: PCI
DSS Virtualization Guidelines, Virtualization Overview, 2.2.6 Cloud Computing, p. 9, June 2011.
29
     OMB, Federal Cloud Computing Strategy, pp. 15-16, February 8, 2011.
30
     OMB, Federal Cloud Computing Strategy, p. 16, February 8, 2011.
31
     SSA’s National 800 Number Network provides toll-free telephone service to members of the public.
32
   SSA’s Call Center Network solution allows routing of calls to the next available agent at any network
site.
33
   The Agency should first determine whether the service-based cost allocation methodology is cost
effective.
Page 7 - The Commissioner

Risks to Agency Data When Moving Computer Services to a Cloud
SSA met OMB requirements by identifying execution risks associated with moving
CARE Through 2020, eVerify, and AAMVA /HAVV to a cloud (see Table 1).


                            Table 1: SSA Identified Execution Risks

                                                        CARE
                                                       Through                      AAMVA/HAVV
 Risk Description                                        2020          eVerify       Verification
 Acquisition or installation of storage to support
 the new node is not timely                                                                 •
 Database migration failure                                                •
 Incomplete management information systems                  •
 Incomplete supporting application                          •
 development and testing
 Internet Data Center construction incomplete               •
 or not-operational
 Load balancing configurations failure                                     •
 Network connectivity not completed timely                                                  •
 Production execution scripts failure                                      •
 Routing configurations failure                                            •
 Scope change requests                                      •
 SSA data processing fails to account for
 transactions flow through the Second Support                                               •
 Center 34
 SSA’s recipient master file data replication
 incomplete.                                                                                •
 System migration failure                                                  •

SSA needs to consider all potential risks to its data or legacy systems when moving
computer services to a cloud. To assist the Agency, we provide a list of the risks
associated with moving computer services to a cloud in Appendix D. The list is not all-
inclusive; therefore, SSA should continue to consider all potential risks to its data or
legacy systems before moving future computer services to a cloud.

Opportunities to Partner with Other Federal Agencies

SSA partnered with the Department of Homeland Security (DHS) and State MVAs on
eVerify and AAMVA/HAVV. In addition, SSA had data exchange agreements with DHS
and State agencies to access and match SSA’s data. Moreover, SSA provided network



34
  The Second Support Center is a co-processing facility that works hand-in-hand with the National
Computer Center to process critical agency workloads, and each center acts as the disaster backup for
the workloads of the other center.
Page 8 - The Commissioner

and IT support services to the Office of Child Support Enforcement and limited IT
support and services to the Railroad Retirement Board and Centers for Medicare and
Medicaid Services.

We contacted nine Federal agencies 35 to obtain their experiences and lessons learned
from moving computer services to a cloud. Two of the nine agencies implemented a
public cloud service while seven agencies moved computer services to either a private,
community, or hybrid cloud. SSA implemented a private cloud service for eVerify and
AAMVA/HAVV. This was consistent with the nine agencies we contacted. Agency
representatives provided their experiences and lessons learned from moving computer
services to a cloud. These experiences and lessons learned were as follows.

•    Realizing consumption of cloud services requires a shared responsibility and
     governance.
•    Understanding accountability and compliance with Government requirements cannot
     be outsourced.
•    Understanding the division of security responsibilities between provider and client,
     and the ability to verify that both are met.
•    Realizing certification and accreditation process is new for cloud vendors as well as
     time consuming.
•    Adhering to directives, legislation, policy, and procedures to ensure appropriate
     analysis, reviews, and procedures are conducted.
•    Involving end user community in the decision process for migrating computer
     services to a cloud.
•    Completing documentation ahead of time for any service level agreements and
     Request for Information. 36

Cloud Initiatives of Other Federal Agencies

Other Federal agencies have implemented cloud computing services. The Department
of the Interior implemented an Infrastructure as a service 37 offering called the National
Business Center Grid, 38 which allowed end users to procure a variety of servers and



35
  The Agency for International Development; DHS; Departments of Agriculture, Commerce, the Interior,
and Veterans Affairs; Environmental Protection Agency; General Services Administration; and Internal
Revenue Service.
36
  A Request for Information is a standard business process used to collect written information about the
capabilities of various suppliers.
37
   Infrastructure as a service refers to a hosting, software, hardware, procurement, and services needed
to run a cloud.
38
  Hannah Wald, Cloud computing for the Federal Community, IAnewsletter, (13/2), Vol. 13, No. 2,
(Spring 2010). http://iac.dtic.mil/iatac/download/Vol13_No2.pdf.
Page 9 - The Commissioner

operating systems through a single cloud portal. DHS implemented SharePoint as a
service offering and implemented more than 50,000 emails to a cloud. 39

The National Oceanic and Atmospheric Administration contracted with a Maryland
company to unify its email and collaboration tools using Google Apps for Government.
The National Oceanic and Atmospheric Administration’s email and collaboration tools
serve about 25,000 users. The Securities and Exchange Commission reduced the time
to resolve cases by up to 75 percent by migrating the Office of Investor Education and
Advocacy to Salesforce.com, a customer relationship management software. This
software cloud initiative allowed its employees to handle customer queries from any
location and manage their workflows. The National Archives and Records
Administration contracted with a technology firm to build a self-service Website for
citizens who need help resolving eFOIA proposal requests. 40

Federal Risk and Authorization Management Program

The Federal Risk and Authorization Management Program (FedRAMP) was established
on December 8, 2011 via an official memorandum from the Federal Chief Information
Officer to all Federal CIOs. FedRAMP was operational as of June 2012. FedRAMP is a
Governmentwide program that provides a standardized approach to security
assessment, authorization, and continuous monitoring for cloud products and services.
This approach uses a “do once, use many times” framework that will save costs, time,
and staff required to conduct redundant agency security assessments. FedRAMP could
provide the SSA with a Governmentwide, standardized approach for security
assessments, ongoing assessments, authorizations, and continuous monitoring of cloud
service providers, if needed.

We applaud SSA for its outreach and partnering with other agencies. However, we
believe more outreach opportunities exist that could provide additional experiences and
lessons learned from moving computer services to a cloud. Therefore, we recommend
SSA continue reaching out to officials responsible for FedRAMP; other Federal, State,
and local government agencies; as well as private industry to obtain best practices and
lessons learned before moving its computer services to a cloud.

CONCLUSION AND RECOMMENDATIONS
Each Federal agency is required to re-evaluate its technology sourcing strategy to
include consideration and application of cloud computing solutions as part of the budget
process. 41 SSA’s Cloud First Plan generally complied with Federal requirements, but
improvements are needed in estimating and tracking costs. Additionally, SSA identified
execution risks for each of its three proposed cloud initiatives as required by OMB.

39
   Cloud Computing, Front and Center, CIO.gov, (June 15, 2012)
http://www.cio.gov/pages.cfm/page/Cloud-Computing-Front-and-Center .
40
   5 Big Cloud Migration Projects, Government Executive, (March 1, 2012)
http://www.govexec.com/reports/five-big-cloud-migration-projects/41288/.
41
     OMB, Federal Cloud Computing Strategy, p. 2, February 8, 2011.
Page 10 - The Commissioner

However, we identified additional risks to the Agency’s data or legacy systems that SSA
should consider when expanding computer services to a cloud. Finally, the Agency
partnered with other agencies, but additional opportunities exist for the Agency to
partner in the future. Therefore, as the Agency continues to develop its cloud
computing implementation plans, we recommend SSA:

1. Develop a service-based methodology to identify and track costs including the costs
   of retiring segments or entire legacy systems for all IT initiatives so the Agency can
   determine whether moving computer services to a cloud provided an equal or
   greater ROI than keeping the status quo.

2. Consider all potential risks to its data or legacy systems before moving future
   computer services to a cloud.

3. Continue reaching out to FedRAMP program officials; other Federal, State, and local
   government agencies; as well as private industry to obtain best practices and
   lessons learned before moving its computer services to a cloud.

AGENCY COMMENTS
SSA disagreed with our recommendations. See Appendix E for the full text of the
Agency’s comments.

In reference to Recommendation 1, the Agency stated it disagreed with our
recommendation because SSA is currently investigating the feasibility and cost
effectiveness of implementing a service-based cost allocation methodology to
complement the Agency’s existing IT cost tracking mechanism. SSA further stated it
intends to identify the most productive, technically feasible, and cost-effective strategies
for the development and deployment of the processes and tools that may be required to
identify and track the costs of IT business services delivered to the Agency’s
community.

In reference to Recommendation 2, the Agency stated it disagrees with our
recommendation because it has taken comprehensive measures to ensure appropriate
and effective risk assessment and mitigation for all IT projects. Additionally, the security
and privacy control deployed to protect information assets incorporates and exceeds the
additional risk categories identified in the report.

Finally, in reference to Recommendation 3, the Agency stated it disagreed with our
recommendation because it actively engages in efforts to identify and refine private
industry cloud computing best practices. Further, the Agency stated that it evaluates
lessons learned from early adopters at any level of Government or the private sector.
Additionally, SSA stated that industry best practices and lessons learned play a
prominent role in the evolution of its cloud computing strategies and implementation
plans.
Page 11 - The Commissioner

OIG RESPONSE
Although the Agency response to Recommendations 1 and 3 indicate disagreement, the
planned course of action addresses the concerns we have raised. For Recommendations 1
and 3, the Agency’s detailed response contradicts its “disagreement” to our
recommendations. For Recommendation 1, SSA disagrees with developing a service-based
methodology when the Agency’s is in fact “. . . investigating the feasibility and cost
effectiveness of implementing a service-based cost allocation methodology . . . .” Further, for
Recommendation 3, SSA disagreed to continue its outreach efforts, but stated in its response
“. . . we actively maintain an ongoing relationship with the General Services Administration,
OMB, and the Federal Risk and Authorization Management Program (FedRAMP) officials to
ensure that our cloud computing initiatives and activities remain consistent with Federal
policies, guidelines, and security provisions.”

While SSA stated that it disagreed with Recommendation 2, the Agency’s detailed
response stated

      We have an existing private cloud IT environment protected by a
      comprehensive defense-in-depth security architecture. . . . We have taken
      comprehensive measures to ensure appropriate and effective risk assessment
      and mitigation for all IT projects. The security and privacy controls we
      deployed to protect our information assets, incorporate and exceed the
      additional risk categories identified in the report.

      . . . we also recognize the immaturity of public cloud computing offerings.
      . . . Therefore, we continue to maintain a highly vigilant posture with respect to
      the effective protection of these systems and assets since the deployment of
      any cloud-based solution may affect them.

      . . . Our current security controls and standards continue to apply whether we
      deliver IT services through our internal, private cloud; through an external,
      public cloud; or through some hybrid of both.

      Our cloud computing strategy continues to address relevant statutory and
      policy requirements associated with Federal IT systems, including IT security
      and risk management; privacy; data integrity; legal issues; records
      management; OMB and the National Institute of Standards and Technology
      guidelines and recommendations; and other applicable requirements.

The OIG believes that as long as these efforts are completed timely and effectively, they
will address this recommendation.




                                            Patrick P. O’Carroll, Jr.
                                      Appendices
APPENDIX A – Acronyms
APPENDIX B – Scope and Methodology
APPENDIX C – SSA’s Cloud First Plan
APPENDIX D – Risks Associated with Moving Computer Services to a Cloud
APPENDIX E – Agency Comments
APPENDIX F – OIG Contacts and Staff Acknowledgments
                                                              Appendix A

Acronyms

AAMVA     American Association of Motor Vehicle Administrators
CARE      Citizen Access Routing Enterprise
CIGIE     Council of Inspectors General on Integrity and Efficiency
CIO       Chief Information Officer
DHS       Department of Homeland Security
eFOIA     Electronic Freedom of Information Act
FedRAMP   Federal Risk and Authorization Management Program
GAO       Government Accountability Office
HAVV      Help America Vote Verification
IG        Inspector General
IT        Information Technology
NIST      National Institute of Standards and Technology
OMB       Office of Management and Budget
ROI       Return on Investment
SP        Special Publication
SSA       Social Security Administration
                                                                      Appendix B

Scope and Methodology
To accomplish our objective, we limited our review to the three computer services the
Social Security Administration (SSA) identified as moving to the cloud. We identified
risks associated with moving any type of computer service to a cloud. We did not limit
our identification of risks to the three computer services SSA identified to move to the
cloud.

We also:

•   Interviewed SSA Systems staff responsible for the Agency’s cloud computing
    services.
•   Obtained and reviewed SSA’s original and revised Cloud First Plan.
•   Interviewed personnel at nine Federal agencies.

           o   Agency for International Development
           o   Department of Agriculture
           o   Department of Commerce
           o   Department of Homeland Security
           o   Department of the Interior
           o   Department of Veteran Affairs
           o   Environmental Protection Agency
           o   General Services Administration
           o   Internal Revenue Service

We also examined:

•   Office of Management and Budget (OMB), Federal Cloud Computing Strategy,
    February 8, 2011.
•   OMB, 25 Point Implementation Plan to Reform Federal Information Technology
    Management, December 9, 2010.
•   OMB, Circular A-130. Management of Federal Information Resources,
    November 28, 2000.
•   OMB, Circular A-11, Section 210, Preparing and Submitting an Agency Strategic
    Plan, August 18, 2011.
•   OMB, Circular A-11, Section 300, Planning, Budgeting, Acquisition, and
    Management of Capital Assets, August 18, 2011.




                                           B-1
•   OMB, Circular A-11, Section 53, Information Technology and E-Government,
    August 18, 2011.
•   National Institute of Standards and Technology (NIST) Special Publication (SP)
    800-145, The NIST Definition of Cloud Computing, September 2011.
•   NIST, SP 500-291, NIST Cloud Computing Standards Roadmap, July 2011.
•   NIST, SP 500-292, NIST Cloud Computing Reference Architecture, September
    2011.
•   NIST, SP 800-146, FINAL Cloud Computing Synopsis and Recommendations,
    May 2012.

We performed our evaluation during September 2011 through June 2012 in Baltimore,
Maryland. The entity evaluated was the Office of the Deputy Commissioner for
Systems. We conducted our review in accordance with the Council of the Inspectors
General on Integrity and Efficiency’s Quality Standards for Inspection and Evaluation.




                                          B-2
                                            Appendix C

SSA’s Cloud First Plan




                Cloud First Plan
                    (Revised and Updated)




                 December 2, 2011




                             C-1
                  TABLE OF CONTENTS

1.     Executive Summary................................................................................................... 3

2.     Background.................................................................................................................. 6

3.     SSA’s Cloud Computing Strategy ........................................................................... 9

4.     Designated Cloud-First Projects ........................................................................ 13
     4.1.     CARE Through 2020 ..................................................................................................... 13

     4.2.     eVerify High Availability Platform .......................................................................... 15

     4.3.     AAMVA/HAVV Verification Services ...................................................................... 17




                                                                 C-2
1. Executive Summary
In December, 2010 Vivek Kundra published his Twenty-Five Point Plan for Reforming Federal IT Management.
In that Plan, OMB mandated that:
Each Agency CIO will be required to identify three “must move” services and create a project plan for
migrating each of them to cloud solutions and retiring the associated legacy systems. Of the three, at
least one of the services must fully migrate to a cloud solution within 12 months and the remaining two
within 18 months.
Each migration plan will include major milestones, execution risks, adoption targets, and required resources,
as well as a retirement plan for legacy services once cloud services are online.

In February, 2011, the Social Security Administration (SSA) submitted its original Cloud-First Plan to OMB
and identified three initiatives that the Agency planned to migrate to a cloud solution or that represented
an extension of, or enhancement to, an existing cloud solution:
•   CARE Through 2020
•   eMail Services
•   eFOIA

Due to subsequent budget developments and additional analysis, SSA is removing eFOIA and
the Agency’s eMail services from its Cloud-First Plan at this time and substituting the eVerify
and American Association of Motor Vehicle Administrators (AAMVA) solutions for its Cloud First
Plan. This decision is based on multiple factors in each case.

eFOIA
An automated electronic system (eFOIA) supports SSA’s management of its obligations under the Freedom of
Information Act (FOIA). The Agency’s staff use the eFOIA system to process requests and administrative
appeals within the timeframes mandated by the statute and to minimize backlogs at the end of each fiscal
year. The existing eFOIA system is an internally developed and maintained system that uses Global 360
(G360) – a custom tailored, commercially available software (customized COTS) solution. Software licenses
and associated infrastructure are supplied under existing, competitive-procurement vehicles. The eFOIA
system is based on aging architecture and infrastructure. Future costs are expected to increase and the long
term viability of the system will diminish. The existing system needs to be retired as soon as it is feasible to
do so. However, it does continue to meet its baseline goals and to deliver its expected benefits.




                                                       C-3
In expectation of a near-term replacement of the Agency’s existing eFOIA system, SSA personnel evaluated
the five-year life cycle costs of seven options/alternatives to the existing system. Cost estimates for the
proposed alternatives were based on market research of the potential offerors specializing in FOIA COTS.
In addition, SSA evaluated each of these alternatives on the basis of qualitative measures.

This analysis indicates that a COTS product – which could be deployed under one of multiple cloud-based
model options – would have the greatest qualitative value for the Government. SSA understands that other
Federal agencies (e.g., HUD and VA) have developed and/or deployed an eFOIA system that might, with
minimal adaptation, meet SSA’s existing and future needs. It was further noted that such an approach would
be fully consistent with OMB’s Cloud First policies.

However, severe limitations in funding and staff resources necessitate suspending the project for FY 2012.
SSA’s existing eFOIA system continues to meet its base requirements and the Agency has no alternative but
to allocate its limited resources to other initiatives that have more critical or urgent needs and that must
therefore take a higher priority.

eMail Services
Subsequent to submission of SSA’s original Cloud First Plan, additional planning and analysis concluded that
the Agency’s existing eMail services are not a good candidate (at this time) for migration to a public cloud
model for several reasons:
•     They are deeply integrated with other services applications, processes and functions – including identity
      verification services, user authentication and authorization services, access controls, collaboration and
      communications services, etc.;
•     They are an integral component of SSA’s unified communications service strategy and architecture;
•     They are used for mission-critical case processing management services and functions;
•     Users and user groups are not well segmented with common requirements within each segment – a
      basic requirement for successful migration to a public cloud solution;
•     Personally identifiable information (PII) – some of which includes highly sensitive medical records –
      cannot be exposed to a potential breach of privacy by allowing such information to reside anywhere
      other than within SSA’s own environment;
•     SSA’s existing eMail service cost less than the projected costs for similar services from a public cloud
      provider.




                                                       C-4
SSA will continue to extend and enhance its eMail services within the context of its broader unified
communications suite of services. These ongoing activities extend beyond the timeframes specified by
OMB in the 25 Point Plan. Accordingly, the Agency must withdraw eMail (as a stand-alone utility) from
consideration as a Cloud-First initiative.

SSA is continuing its implementation of CARE Through 2020 – a cloud telephony service that will
significantly enhance the Agency’s public services.

To replace eFOIA and eMail services as Cloud First initiatives, SSA identified two other initiatives, each
of which is a component of the Agency’s SSN Verification Services. These initiatives are described in
the relevant section below.
SSA ’s Overall Cloud Computing Strategy
SSA considers the advent of Cloud Computing as an effective and evolutionary model to enhance and extend
the information and IT services it delivers to its end-users, business partners, and customers. Going forward,
SSA’s strategy is to adopt Private Cloud Computing as the model that is most consistent with its mission and
its business operations models. This strategy allows SSA to leverage Cloud Computing in order to extend the
service capabilities of its existing IT environment. The use of the Cloud Computing model – consistent with
the Agency’s risk management framework and its certification and accreditation standards – is encouraged
within the framework of SSA’s centrally managed enterprise architecture governance as well as its IT service
acquisition and source selection processes.
•     The Agency’s current security controls and standards will continue to apply – no matter what
      hosting/sourcing decision is being made – i.e., whether IT services are being delivered through the
      Agency’s internal, private cloud; through an external, public cloud; or through some hybrid combination
      of both.
•     SSA’s Cloud Computing strategy will continue to address relevant statutory and policy requirements
      associated with Federal IT systems – including IT security and risk management; privacy; data integrity;
      legal issues (e.g., Terms of Service); records management; OMB and NIST guidelines and
      recommendations; and other applicable requirements.

SSA’s commitment to protecting personally identifiable information (PII) remains a key component of
the Agency’s Cloud Computing strategy and is built into the operation and management of its existing
private cloud services environment.




                                                        C-5
2. Background
SSA is utilizing Cloud Computing as an effective and evolutionary model to enhance and extend the
information and IT services it delivers to its end-users, business partners, and customers.

SSA is a single-mission Agency. Its core business processes (i.e., Enumeration, Earnings, Claims, Post-
Entitlement, Informing the Public, and Identity/SSN Verifications) are tightly inter-woven. They are also highly
complex in their information flow and relationships. The data and information requirements of these core
business processes, and their mutual inter- dependencies, require an IT service environment that provides
information and services based on common platforms, re-usable service modules, robust any-to-any network
systems and back-end IT infrastructure. Additionally, given the sensitive nature of the highly personal
information and data within SSA’s systems of records, data integrity and security as well as the protection of
individual privacy are critical IT service requirements.

The design and management of SSA’s IT service environment have evolved over time. As a result of that
evolution, the environment has substantially taken on the characteristics of a Private Cloud Computing
model as defined by the National Institute of Standards and Technology (NIST):
•     Utilizing SSA’s IT services environment, end-users do not need to determine their exact resource
      requirements. Through secure access to the Agency’s network systems, they are provided the necessary
      communications and computing resources they require, on demand;
•     Through effective monitoring systems, load-balancing mechanisms and automatic failover capabilities,
      the design and operation of SSA’s IT infrastructure and platforms – hosted in two highly virtualized data
      centers – provide for streamlined and optimized resource utilization and management;
•     IT service resources are pooled to a significant degree. They are shared across large numbers of
      application and organizational configurations and serve a broad spectrum of service consumers;
•     SSA’s Service Orchestration and Management model leverages SSA’s highly configured and largely
      virtualized data centers, allowing the Agency to consolidate workloads and applications on a centrally
      managed and operated IT infrastructure;
•     The capacity of network and telecommunications systems and computing services is provisioned to
      respond to variations in demand across programmatic and administrative applications;
•     Systems capacity requirements are efficiently planned for, and pro-actively acquired, to meet increasing
      workload demands through effective management of Resource Allocations and Controls;




                                                       C-6
•     Redundant resources support high availability and reliability as well as to provide IT operational
      assurance, even in the event of a catastrophic outage within a specific data center.

SSA’s IT services are centrally managed through:
•     Deployment, configuration, management and operation of programmatic and administrative software
      applications in such a manner that these services are provisioned at expected service levels;
•     Management of computing services, storage, and network systems infrastructure and platforms such as
      servers, databases, runtime software execution stacks, and middleware components;
•     Provision of integrated pre-production environments for both programmatic and administrative
      application development, validation and testing;
•     Change Management and Production-Release Management processes applied to infrastructure,
      platforms, applications and services;
•     Provisioning and acquisition management of mainframe, open/distributed servers, network system
      components, storage, and application and database hosting infrastructure;
•     Provisioning and management of a robust Security and Privacy architecture for the protection of SSA’s
      sensitive and personally identifiable information (PII).

The SSA community represents multiple groups of service consumers/end-users with many needs and
requirements. SSA accordingly delivers a broad range of IT services that are carefully orchestrated to meet the
needs of each of these groups. SSA’s end-users, partners and customers have a broad range of network
access options to obtain an equally broad range of IT services and computing capabilities tailored to their
specific needs. Services are provided on demand (as appropriate) at each of the service layers to which the
individual end-user or customer has access.

To a substantial degree, the Agency’s IT resources are pooled to meet the needs of these multiple users.
Through the deployment of load balancing and automatic failover capabilities, IT resources can be
dynamically allocated to adjust to variations in peak end-user/customer demand. SSA’s IT service capabilities
– particularly within its highly virtualized mainframe environment – can be rapidly and elastically provisioned.
SSA’s various cloud systems monitor, control and optimize IT resource utilization.




                                                       C-7
The following are some of the services SSA currently provides to its end-users, customers, or business
partners:
•     Programmatic application services directly associated with SSA’s core business processes;
•     A unified communications suite including eMail, video-teleconferencing, video training, collaboration
      environments, etc.;
•     Document Management Services;
•     Office Productivity and Workload Management Services;
•     Integrated Case Processing Management Services;
•     Communication and Collaboration Services;
•     Remote Access Services;
•     Project Management Services;
•     Business Intelligence Services;
•     Financial Management Services;
•     Database Access and Management Services;
•     Application Development, Validation and Testing Services;
•     Application Deployment Services;
•     Integration and Interoperability Testing Services;
•     Disaster Recovery Services;
•     Backup and Recovery Services;
•     Information and Data Storage Services;
•     Platform Hosting Services;
•     Computing Services;
•     Identity Verification Services; and
•     Authentication Services.

SSA has substantially improved resource utilization; streamlined demand management; increased the
availability, reliability and responsiveness of the services it delivers. The evolution of SSA’s shared-service IT
environment toward a Private Cloud Computing model has allowed the Agency to capitalize its benefits in
terms of efficiency, agility, and innovation. By further leveraging Private Cloud Computing principles, SSA will
continue to exploit significant economies of scale, provisioning its IT resources to meet increasing service
delivery demands with minimal overhead while leveraging the underlying capacity of the Agency’s enterprise-
level IT resources through a state-of-the-art network architecture.




                                                       C-8
3. SSA’s Cloud Computing Strategy
SSA is adopting a Private Cloud Computing model because it is seen as most consistent with its mission and its
business operations models. This strategy allows the Agency to effectively leverage the Cloud Computing
model in order to extend the service capabilities of its existing IT environment. Resources permitting, SSA’s
planned Cloud Computing initiatives include, but
are not limited to:
•     Further enhancing dynamic scaling capabilities and processing capacity provisioning by continuing with
      network virtualization and server virtualization/consolidation initiatives;
•     Incorporating highly sophisticated technological enhancements to the IT infrastructure, systems and
      platforms – including statelessness, low coupling, modularity, and semantic interoperability;
•     Improving the provisioning, performance, agility, resilience and scalability of SSA’s network systems
      through unified cabling infrastructure, and network convergence and virtualization;
•     Enhancing IT service measurement capabilities through greater instrumentation of the infrastructure
      and the applications, data and services it supports.

SSA will continue to ensure that existing mission-critical services, strategic goals and business operation
requirements are delivered at levels that meet or exceed requirements while simultaneously protecting the
security, integrity and privacy of information and data assets. The Agency’s commitment to protecting
personally identifiable information (PII) is a key component of its Cloud Computing strategy.

SSA encourages the use of the Cloud Computing model, consistent with its:
•     Risk management framework;
•     Certification and accreditation standards;
•     Centrally-managed enterprise architecture governance model; and
•     IT service acquisition and source selection processes.

SSA’s current security controls and standards will continue to apply – no matter what hosting/sourcing
decision is being made – i.e., whether IT services are being delivered through the Agency’s internal, private
cloud; through an external, public cloud; or through some hybrid combination of both. The Agency’s Cloud
Computing strategy must continue to address relevant statutory and policy requirements associated with
Federal IT systems – including IT security and risk management; privacy; data integrity; legal issues (e.g.,
Terms of Service); records management; OMB and NIST guidelines and recommendations; and other
applicable requirements.




                                                      C-9
Multiple strategic and operational considerations will govern the way SSA leverages and extends the
capabilities of its existing IT environment as it continues its migration to a Private Cloud Computing
environment:

Workload Optimization
SSA’s computing services platform and its network infrastructure will be configured for optimized
workload management.
•     Mainframe and distributed platform environments will continue to leverage their respective
      strengths;
•     The mainframe platform will continue to be favored for dense, mission-critical, high volume
      batch operations;
•     Applications will be hosted on the platform most suited to the data they must access and the type of
      work (I/O, user interface, transaction-based) they must perform;
•     State-specific applications are being consolidated or replaced in favor of Service Oriented Architecture
      (SOA) model services that can be reused and assembled to suit state-specific processes;
•     Distributed platform components will continue to be virtualized and consolidated to provide
      higher levels of availability, resource utilization, and elasticity of capacity.

IP-based Network Service Delivery
The Agency’s any-to-any, dual-stack, IPv4/IPv6 network architecture will continue as a hybrid public/private
cloud infrastructure.
•     Network systems will converge toward a single infrastructure supporting data, voice, and video traffic;
•     Utilizing the Internet Protocol (IP), the Agency’s converged network will provide enhanced features in
      terms of telephone services, video capabilities, and data exchange and analysis.




                                                      C-10
Utilization of Public Cloud Resources Where Appropriate and Cost Effective
Sourcing options for the delivery of IT services include consideration of critical requirements. SSA continues
to include consideration of cloud-based services that may be more cost- effectively delivered through an
external resource – either another Government Agency or a commercial provider/vendor, as long as:
•     There is no Personally Identifiable Information (PII) or other mission critical data involved; AND
•     The choice of a public/hybrid cloud model is cost-effective with a clear and demonstrable Return on
      Investment (ROI) to the Agency.

As with any IT service/sourcing project, the use of public or hybrid clouds requires a formal
cost-benefit analysis to demonstrate a positive value (i.e., return on investment (ROI)) as well as appropriate
security and privacy review and approval where PII may be a concern.

Utilization of Technologies Related to Cloud Computing
SSA’s IT planners and engineers continue to focus their efforts on evaluating and deploying enhanced IT
solutions that leverage network-delivered, web-based services to users and to the public through a broad
spectrum of end-user devices and network interfaces.

The Agency’s existing IT environment will continue to leverage the benefits of virtualization,
consolidation, and workload optimization to increase resource utilization and processing efficiency.

On an ongoing basis, the Agency will continue to enhance the flexibility and agility of its existing IT services
and infrastructure through deployment of new technologies as they are found to support and enhance SSA’s
service delivery models and channels.

SSA continues to evaluate IT services and business operations activities to identify those that that might be
better provided by external partners whose services and capabilities meet the specific requirements of the
Agency and the Federal Government at large. This evaluation focuses on areas where the existing IT
environment is not well suited to meet exigent demands.




                                                       C-11
Leveraging Cloud-based IT Service Delivery and Management
•     IT operations management will continue its emphasis on service delivery and
      management.
•     New and evolving technologies will be evaluated and deployed based on their value in enhancing and
      extending the services provided to SSA’s end-user communities.
•     Consideration and evaluation of IT service delivery include an assessment of activities or services that
      might be good candidates for greater standardization, outsourcing, and/or deployment within a Cloud
      Computing service model.
•     Consideration of Cloud Computing resources will continue to represent one of the available means to
      provide, extend and enhance high quality IT services to the Agency’s end-users.

Implementing Cloud-based IT Acquisitions Policies and Procedures
•     IT acquisition and sourcing policies and procedures ensure that valid and demonstrable business
      value remains the foundation for all decisions regarding the deployment of IT services and solutions
      (including those that are cloud-based).
•     The development, acquisition, and deployment of IT solutions and services will continue to be based on
      robust and mature business value considerations – specifically a thorough analysis of costs, benefits,
      and expected return on investment (ROI).
•     While SSA’s IT services environment is highly cost-effective, senior managers and Agency executives
      continue to evaluate IT-related proposals in terms of the most cost-effective delivery model and will
      consider the costs and benefits of Cloud Computing solutions within strategic planning and source
      modeling.

By coordinating these strategic elements within planning and IT service delivery and operations management,
SSA expects to continue to reap the benefits of the Cloud Computing model.




                                                     C-12
4. Designated Cloud-First Projects
In response to OMB’s December 2010 directive, SSA has identified three initiatives, which are described in
the following sections.

4.1.    CARE Through 2020
On September 30, 2010, the CARE Through 2020 contract was awarded to at&t. CARE Through
2020 is a cloud telephony solution that is replacing National 800 Number (N8NN) and the Call Center
Network Solution (CCNS). CARE Through 2020 allows SSA to achieve a number of economies by
consolidating the two existing contracts into a single acquisition vehicle.

CARE Through 2020 is being deployed to provide and enhance the telephone services the Agency provides to
the public. The infrastructure for the CARE Through 2020 system is being deployed on the contractor’s
network and is flexible enough to support future computer- telephony integrated (CTI) services, such as click
to talk, web co-browse, and web chat technologies. These services will significantly increase the public’s
options to interact with the Agency’s contact centers.

The public cloud services architecture of CARE Through 2020 includes:
•      A vendor-hosted IP voice call/contact center;
•      All functionality currently provided by FTS2001 and CCNS;
•      Approved new functionality as offered in SSA’s Telephone Services Strategic Plan;
•      Capability to integrate additional agent contact channels upon approval of funding.

Scheduled implementation of CARE Through 2020 is on target for completion in the May/June,
2012 timeframe.

Major Milestones
SSA’s original Cloud Computing Strategy Plan projected that the initial rollout of the CARE Through 2020
project would be completed by the end of December, 2011. However, issues related to the final contract
award delayed the start of the project. As a result, the current projected date of completion is the third
quarter of FY 2012 (i.e., approximately the May/June timeframe).




                                                       C-13
Execution Risks
•       Internet Data Center construction incomplete or not-operational
•       Scope Change Requests
•       Supporting application development and testing incomplete
•       Management information systems incomplete

Lifecycle Cost Estimate
•       Initial Acquisition:                               $ 20,674,000
•       Transition Costs:                                  $ 38,381,000
•       FY 2012 Operations & Maintenance:                  $ 58,088,000
•       FY 2013 Operations & Maintenance                   $ 59,290,000
•       FY 2014 Operations & Maintenance                   $ 60,635,000
•       FY 2015 Operations & Maintenance                   $ 62,754,000
•       FY 2016 Operations & Maintenance                   $ 64,941,000
•       FY 2017 Operations & Maintenance                   $ 67,215,000
•       FY 2018 Operations & Maintenance                   $ 69,571,000
•       FY 2019 Operations & Maintenance                   $ 71,997,000

Total                                                      $573,546,000

NOTE: SSA’s initial cost estimate for CARE Through 2020 ($ 630,344,000) included $56,798,000 Operations and
Maintenance costs for FY 2011. Because of delays in contract award, the transition period was extended into FY
2012. The estimate above does not therefore include the planned FY 2011 Operations and Maintenance costs.

Legacy Retirement Plan
With the deployment of CARE Through 2020, SSA’s existing N8NN and CCNS solutions will be retired in favor
of the single, streamlined service.




                                                             C-14
 4.2. eVerify High Availability Platform
eVerify provides employers (and certain others) an automated link to federal databases to help employers
determine employment eligibility of new hires and to ensure the Social Security number matches the
employees name. It is currently free to employers and is available in all 50 states. eVerify is operated by the
U.S. Citizenship and Immigration Services (USCIS) – a component of the Department of Homeland Security
(DHS) – in partnership with the Social Security Administration (SSA).

In operational terms, DHS/USCIS provides eVerify’s front-end interface with the customer (i.e., the employers
and certain others). SSA provides DHS/USCIS the back-end infrastructure and database systems that actually
perform the verification. This back-end infrastructure, platform and software/database system is comprised
of a physical layer and an abstraction layer. The physical layer is designed to provide load balancing between
SSA’s data centers and features fully automatic fail-over, dynamic capacity allocation capability, etc. This
back-end infrastructure is accessed by DHS/NSCIS over a secure Internet connection. The abstraction layer is
designed to support the software and database systems that operate across the
physical layer (i.e., the hardware and network connections).

A Service Level Agreement (SLA) between SSA and DHS/NSCIS governs the operation of this verification
service. The latter Agency reimbursed SSA for the design, construction and deployment of the isolated
environment in which the back-end eVerify system operates. It reimburses SSA on an annual basis for
maintenance, operations and administration of the system.

SSA has completed the deployment of a second eVerify node in its Second Support Center (SSC) to enhance
the availability, performance and reliability of the services provided to DHS/NSCIS. The creation of this second
node in a geographical dispersed location eliminates planned downtime and enhances the performance
availability and reliability of the system.
The implementation of this project was completed in January, 2011.

Major Milestones
•     Target Architecture Design Completion: 06/30/2010
•     Complete Required Hardware/Software Acquisitions: 11/30/2010
•     Begin Construction of Integration Region on High Availability Sysplex: 12/01/2010
•     Begin Construction of Production Region on High Availability Sysplex: 12/11/2010
•     Complete Migration from MISF to HAF/iHAF: 01/15/2011
•     Verify operational status on HAF/iHAF: 01/17/2011
•     Configure Global Load Balancing: 01/22/2011
•     Evaluate Performance and Response Times: 01/31/2011




                                                       C-15
Lifecycle Cost Projections
SSA’s life cycle cost estimate for fiscal years 2010 through 2015 of almost $66 million includes:
•     Approximately $14 million in costs that have already been incurred for developing the Isolated
      Environment, which was designed for dedicated use by DHS;
•     $18 million for fiscal years 2010 through 2013 to maintain this system; and
•     $34 million for fiscal years 2010 through 2015 to provide administrative support to SSA field offices and
      a toll-free number to respond to inquiries.

Under the terms of the SLA with DHS, SSA is fully reimbursed for these costs. Execution Risks
•     Production Execution Scripts Fail
•     Routing Configurations Fail
•     Load Balancing Configurations Fail
•     System Migration Failure
•     Database Migration Failure

Legacy Retirement Plan
The instances of eVerify in the Integration and Production regions of the MISF have been removed.




                                                      C-16
4.3. AAMVA/HAVV Verification Services
State Motor Vehicle Administrations (MVAs) which are responsible for the issuance of driver’s licenses and
state-certified identification cards must verify an individual applicant’s identity prior to issuing the license or
identification card. To do so, the MVA’s must verify the applicant’s name, date of birth, and Social Security
Number (SSN) with SSA. Similarly, State- level Voter Registration Services require the same type of
verification services.

To meet these service demands, under a series of written agreements, SSA and the American Association of
Motor Vehicle Administrators (AAMVA) have established cloud-based system that allows state-level motor
vehicle and voter registration offices to verify the identity of individuals applying for a driver’s license,
identification card or who are seeking to register to vote. As with eVerify, AAMVA provides the front-end
web-service through which State MVA’s and Voter Registration offices are able to access SSA’s SSN
verification services. SSA provides and maintains the back-end infrastructure and verification services.

A Service Level Agreement (SLA) between SSA and AAMVA governs this SSN verification service. The
architecture of the AAMVA platform provides a broad range of features and functionality.

To enhance the availability, performance and reliability of the services provided, SSA is establishing a second
AAMVA node in its Second Support Center (SSC. The creation of this second node in a geographical dispersed
location provides for automatic load balancing and failover/recovery capability – ensuring the availability and
reliability of the system in providing the critical services required by AAMVA and its clients/customers.
Additional enhancements to the infrastructure and platform provide greater performance and reduced
response times.

The implementation of this project is nearing completion. The second node will be fully operational
by January 31, 2012.

Major Milestones
•      Finalize Network Connectivity Requirements: 06/30/2011
•      Finalize Storage Capacity Requirements: 07/15/2011
•      Storage installed and configured: 09/30/2011
•      Configuration of Integration region completed: 09/30/2011
•      Integration region configuration validated and verified: 10/15/2011
•      Configuration of Production region completed: 10/31/2011
•      Acquisitions/procurements completed: 10/31/2011
•      Production region configuration validated and verified: 12/15/2011
•      Verification service applications tested operational: 01/31/2012




                                                        C-17
Lifecycle Costs
There were no new ITS costs associated with this project. SSA utilized existing infrastructure, platform and
data service capabilities to provision the second AAMVA node in the SSC.

Under the terms of the SLA, AAMVA reimburses SSA for the costs of delivering this service to
AAMVA and its client agencies.

Execution Risks
•     Network connectivity is not completed (timely).
•     Storage to support the new node is not acquired or installed (timely).
•     SSA data processing fails to account for transactions flowing through the SSC.
•     NUMIDENT data replication infrastructure incomplete.
Legacy Retirement Plan
Not applicable. There is no legacy system to retire in this instance.




                                                       C-18
                                                                             Appendix D

Risks Associated with Moving Computer
Services to a Cloud
The National Institute of Standards and Technology (NIST), the Inspector General (IG)
community, the Government Accountability Office (GAO), and cloud subject matter
experts have identified the following risks associated with moving computer services to
a cloud. This list is not all-inclusive; therefore the Social Security Administration (SSA)
should consider all potential risks to its data or legacy systems before moving future
computer services to a cloud.

NIST

NIST Special Publication 800-146 1 discusses various risks related to moving services to
a cloud. These risks include the following.

    Computer Performance – Different types of computer applications require different
levels of system performance. For example, email is generally tolerant of short service
interruptions, but industrial automation and real-time processing generally require both
high performance and a high degree of predictability. Cloud computing has similar
performance issues that include time delays, off-line data synchronization, and data
storage management.

    Cloud Reliability - Reliability refers to the probability that a system will function
without failure for a specified period of time within a specified environment. For the
cloud, reliability is broadly a function of the reliability of four components: (1) the
hardware and software facilities providers offer; (2) the provider’s personnel;
(3) connectivity to the subscribed services; and (4) the subscriber’s personnel. Cloud
reliability depends on several factors, including network dependency, cloud provider
service or utility outages, and safety-critical workload processing.

   Economic Goals - Cloud computing offers an opportunity to use computing
resources with small or modest up-front costs. The related risks are business
continuity, service-level agreement evaluations, portability of workloads, interoperability
between cloud providers, and disaster recovery.

   Compliance - The subscriber retains the responsibility for compliance when data or
processing is moved to a cloud but the provider (having direct access to the data) may
be in the best position to enforce compliance rules. Therefore, compliance should be

1
 NIST Special Publication 800-146, Cloud Computing Synopsis and Recommendations, §§ 8.1 – 8.5, pp.
8-1 through 8-9, May 2012.


                                               D-1
addressed contractually and include terms related to lack of visibility into how clouds
operate, physical data location, jurisdiction and regulation pertaining to clouds (that is,
Health Information Protection and Accountability Act, Federal Information Security
Management Act of 2002, etc.), and support for forensics in a cloud.

    Information Security - Pertains to protecting the confidentiality and integrity of data
and ensuring data availability. Information security risks includes those risks associated
with unintended data disclosure, data privacy, system integrity, multi-tenancy 2 clouds,
browser use, hardware support, and management of cryptographic keys.

IG Community

The Council of Inspectors General on Integrity and Efficiency (CIGIE) identified similar
risks as NIST. These risks included data security and regulatory compliance in moving
services to a cloud. Furthermore, the IG community identified the following areas of
concerns when moving services to the cloud.

•   Access to information
•   Asset availability
•   Software maintenance
•   Intellectual property language

CIGIE stated Federal agencies should have access to real time and archived data
facilitating the agency’s ability to audit and investigate without incurring additional cost.
Additionally CIGIE expressed concerns about vendor compatibility with agency cloud
services. CIGIE also noted issues with estimating outage time for hardware and
software updates, fulfilling certification and accreditation requirements, and addressing
patch management and version control. Moreover, CIGIE stated agencies need to
include cloud agreement language that protects the Government while setting vendor
boundaries. 3

GAO

GAO cited concerns about potential information security risks associated with cloud
computing. These concerns were identified through information collected and analyzed
from industry groups, private sector organizations, and NIST as well as a survey of
24 Federal agencies. Specifically, GAO reported the risks to moving computer services
to a cloud included



2
 In cloud computing, multi-tenancy is the phrase used to describe multiple customers using the same
public cloud.
3
 IT Investigations Subcommittee of the Council of Inspectors General on Integrity and Efficiency Cloud
Computing Working Group, pp. 1-6, 2011, Cloud Computing Contracting Concerns.


                                                  D-2
•      the possibility that vendor security controls may be ineffective or noncompliant,
•      potential loss of governance and physical control of agency data,
•      cloud provider insecure or ineffective deletion of agency data, and
•      inadequate background and security investigations for service provider employees.

Additionally, GAO noted concerns about the increased risk associated with multi-
tenancy resources and risk of data interception resulting from the increase in data
transmission volume. 4

Cloud Subject Matter Experts

Cloud Subject Matter Experts identified risks associated with moving computer services
to a cloud. These risks include

•      resolution of cyber security risk; 5
•      failure to move entire legacy system application, functions, and features; 6
•      failure of cloud solution to meet its financial objectives;
•      difficulty to develop and integrate cloud services due to the complexity of the service;
•      failure to recover cloud services after a disaster; and 7
•      loss of customization. 8




4
  GAO, Information Security, Testimony before the Committee on Oversight and Government Reform and
Its Subcommittee on Government Management, Organization and Procurement, House of
Representatives, pp. 3 and 4, July 1, 2010.
5
 TechAmerica, TechAmerias’s Twenty-First Annual Survey of Federal Chief Information Officers, Section
Cybersecurity, p. 2, May 2011.
6
    Id. at p. 25.
7
 ZDNet, Eight cloud computing risks, and how to quash them, September 28, 2011.
http://www.zdnet.com/blog/service-oriented/eight-cloud-computing-risks-and-how-to-quash-them/7752.
8
    Barrie Sosinsky, Wiley Publishing, Cloud Computing Bible, p. 18, 2011.


                                                    D-3
                  Appendix E

Agency Comments
                                                   Social Security
MEMORANDUM


Date:      September 11, 2012                                                      Refer To:   S1J-3

To:        Patrick P. O’Carroll, Jr.
           Inspector General

From:      Dean S. Landis /s/
           Deputy Chief of Staff

Subject:   Office of the Inspector General Draft Report, “Cloud Computing at the Social Security
           Administration” (A-14-12-11226)—INFORMATION

           Thank you for the opportunity to review the draft report. Please see our attached comments.

           Please let me know if we can be of further assistance. You may direct staff inquiries to
           Amy Thompson at (410) 966-0569.

           Attachment




                                                         E-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL DRAFT REPORT,
“CLOUD COMPUTING AT THE SOCIAL SECURITY ADMINISTRATION”
(A-14-12-11226)


General Comment

At the top of page 5, the report states, “...OMB never formally approved SSA’s plan.” We
believe this statement should be qualified, as it has been a matter of standard practice that the
Office of Management and Budget (OMB) does not provide such formal, written approvals. By
omitting this information, it infers that OMB chose to withhold its approval and that our cloud
computing efforts are somehow deficient. While we do not dispute the strictly factual accuracy
of the statement, we do object to its negative implication when made outside a context that
ignores OMB’s standard practice.

Response to Recommendations

Recommendation 1

Develop a service-based methodology to identify and track costs including the costs of retiring
segments or entire legacy systems for all IT initiatives so the Agency can determine whether
moving computer services to a cloud provided an equal or greater ROI than keeping the status
quo.

Response

We disagree. As we presented several times during the course of this review, we previously
identified the need for service-based cost allocation models and methodologies. We are
currently investigating the feasibility and cost effectiveness of implementing a service-based cost
allocation methodology to complement our existing Information Technology (IT) cost tracking
mechanisms. We are obtaining the input and support of subject matter experts through one of
our existing contract vehicles. In addition, we intend to identify the most productive, technically
feasible and cost-effective strategies for the development and deployment of the processes and
tools that may be required to identify and track the costs of IT business services delivered to our
community.

Recommendation 2

Consider additional potential risks to its data or legacy systems before moving future computer
services to a cloud.

Response

We disagree. We have an existing private cloud IT environment protected by a comprehensive
defense-in-depth security architecture. These mechanisms will continue as critical elements of
our cloud computing strategy as noted in our Cloud First Plan. We have taken comprehensive


                                               E-2
measures to ensure appropriate and effective risk assessment and mitigation for all IT projects.
The security and privacy controls we deployed to protect our information assets, incorporate and
exceed the additional risk categories identified in the report.

In addition to our comprehensive and robust risk assessment and mitigation, we also recognize
the immaturity of public cloud computing offerings. This immaturity represents a substantial
and concrete risk to the security, confidentiality, privacy, and integrity of the highly sensitive
personal and acquisition-related data and information housed within our systems. Therefore, we
continue to maintain a highly vigilant posture with respect to the effective protection of these
systems and assets since the deployment of any cloud-based solution may affect them.

Finally, we continue to maintain the policy that interdicts the deployment of any cloud solution
that could potentially jeopardize the security, privacy, confidentiality, or integrity of personally
identifiable information by allowing it to reside beyond the protection of our own security
authorization boundaries. Our current security controls and standards continue to apply whether
we deliver IT services through our internal, private cloud; through an external, public cloud; or
through some hybrid of both.

Our cloud computing strategy continues to address relevant statutory and policy requirements
associated with Federal IT systems, including IT security and risk management; privacy; data
integrity; legal issues; records management; OMB and the National Institute of Standards and
Technology guidelines and recommendations; and other applicable requirements.

Recommendation 3

Continue reaching out to FedRAMP program officials; other Federal, State, and local
government agencies; as well as private industry to obtain best practices and lessons learned
before moving its computer services to a cloud.

Response

We disagree. As we presented during this review, we actively maintain an ongoing relationship
with the General Services Administration, OMB, and the Federal Risk and Authorization
Management Program (FedRAMP) officials to ensure that our cloud computing initiatives and
activities remain consistent with Federal policies, guidelines, and security provisions.

We actively engage in efforts to identify and refine private industry cloud computing best
practices. We also evaluate lessons learned from early adopters at any level of government or
the private sector. Industry best practices and lessons learned play a prominent role in the
evolution of our cloud computing strategies and implementation plans.




                                               E-3
                                                                          Appendix F

OIG Contacts and Staff Acknowledgments
OIG Contacts

   Brian Karpe, Director, Information Technology Audit Division
   Mary Ellen Moyer, Audit Manager

Acknowledgments

In addition to those named above:

   Cheryl Dailey, Auditor-in-Charge

For additional copies of this report, please visit our Website at http://oig.ssa.gov/ or
contact the Office of the Inspector General’s Public Affairs Staff at (410) 965-4518.
Refer to Common Identification Number A-14-12-11226.
                            DISTRIBUTION SCHEDULE

Commissioner of Social Security
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Committee on the Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Oversight and Government
Reform
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security Pensions
and Family Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations (OER), and Office of
Technology and Resource Management (OTRM). To ensure compliance with policies and procedures, internal
controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and Quality
Assurance program.
                                                  Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                              Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                            Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCIG administers the Civil Monetary Penalty program.
                                        Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                           Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
